GENERAL SERVICES ADMINISTRATION
  OFFICE OF INSPECTOR GENERAL




 AUDIT OF GSA’S FISCAL YEAR 2009
     DIRECT PAY PURCHASES
REPORT NUMBER: A100137/B/F/F10004
       SEPTEMBER 30, 2010
                  u.s. GENERAL SERVICES ADMINISTRATION
                  Office of Inspector General




September 30, 2010


MEMORANDOM FOR:                       ALISON L. DOONE
                                      CHIEF FINANCIAL OFFICER (B)


FROM:                                 JEFFREY C. WOMACK
                                      DEPUTY ASSISTANT INSPECTOR GENERAL FOR
                                      FINANCE AND ADMINISTRATIVE AUDIT OFFICE (JA-F)

SUBJECT:                              Audit of GSA's Fiscal Year 2009 Direct Pay Purchases
                                      Report Number A100137/B/F/F10004

During fiscal year 2010, the Office of Inspector General's (OIG) Finance and
Administrative Audit Office (JA-F) initiated an audit of fiscal year 2009 direct pay
purchases. This audit was performed in response to a request from the Office of the
Chief Financial Officer (OCFO). The OCFO expressed concerns over the direct pay
purchases because micro-purchases under the threshold are not reviewed outside of
the program offices.

Objective, Scope and Methodology

The objective of the audit was to determine if fiscal year 2009 direct pay purchases
were processed in compliance with OCFO policy and the Prompt Payment Act.

To achieve this objective, we reviewed regulations and guidance pertinent to the direct
pay program; contacted and met with appropriate staff to gain an understanding of the
process; developed a cycle memo 1 and conducted walkthroughs. 2 We also worked with
the OIG statistician to generate a statistical sample of 118 direct pay purchase
transactions valued at $3,000 or less from a population of 16,581 transactions and 78
direct pay purchase transactions over $3,000 from a population of 1,068 transactions.
We then reviewed the corresponding supporting documentation to determine if:


1   A cycle memo is a description of the operating policies and procedures relating to the processing of cycle
transactions.

2 Our walkthrough consisted of tracing transactions from initiation, through processing, to inclusion on the
general ledger, observation of the processing and applicable controls in operation, making inquiries of
personnel applying the controls and examination of related documents.

                                                        Page 1 of 6




                                    Federal Recycling Program   .3
                                  1800 F Street, NW, Washington, DC 20405-0002
                                                                     Printed on Recycled Paper
        (1) The invoice amount agreed with the amount posted in Pegasys;

        (2) The invoices had been properly reviewed and approved3;

        (3) The appropriate general ledger accounts were used; and,

        (4) The transaction was processed in a timely manner in accordance with the
        provisions of the Prompt Payment Act.

The audit field work was conducted during the period of March 2010 to August 2010 in
accordance with generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusion based on our audit objective.


Background

In April 2002, when Pegasys became the GSA accounting system of record, only the
Agency’s finance centers were authorized to approve direct pay purchases that were
not associated with an undelivered order in the system. From April 2002 to August
2005, all vendor invoices documenting receipt of goods or services were submitted to
the applicable finance centers4 prior to payments being processed.

In August 2005, the OCFO established the Policy on Submission of Invoices to the
Office of Finance in which direct payments of $2,500 or less would no longer be
submitted to the finance centers, instead, the applicable GSA service or staff office
would receive and enter these invoices into Pegasys themselves. In February 2007, the
micro-purchase threshold for procurement of supplies or services increased from
$2,500 to $3,000. Consequently, the current process for direct pay purchases simply
requires that an individual having access rights to Pegasys enter payment information
(vendor, item description, amount and accounting codes) for purchases that are $3,000
or less. The finance centers then process the payment without review of the actual
invoice or validating receipt of goods or services.
3
  For direct pay purchases over $3,000, we obtained and reviewed additional supporting documentation
to ensure the transactions were authorized by the appropriate finance centers.
4
  There are two finance centers that process direct pay purchases: the Heartland Finance Center (HFC) in
Kansas City, Missouri and the Greater Southwest Finance Center (GSFC) in Fort Worth, Texas. The
HFC processes direct pay purchases for the Federal Acquisition Service (FAS) and the GSFC processes
direct pay purchases for the Public Buildings Service (PBS).  

                                             Page 2 of 6
Also, as part of the Policy on Submission of Invoices to the Office of Finance, the OCFO
established that direct payments greater than $3,000 are required to be forwarded to
the appropriate finance center for an additional level of review and disbursement.

Results in Brief

Our audit found instances where GSA did not consistently adhere to the OCFO’s Policy
on Submission of Invoices to the Office of Finance and the Prompt Payment Act.
Specifically, we noted a transaction without supporting documentation and invoices that
were not paid in a timely manner. In addition, we noted a weakness with regard to
segregation of duties in which the same person had authorization for all three Pegasys
role-holder positions: Direct Pay Approver, Accounting Classification, and Funds
Authorization.

Audit Finding

Internal controls over GSA’s direct payment process can be improved.

Our audit identified a transaction without supporting documentation. According to the
Prompt Payment Act, GSA is required to keep documentation to substantiate any
disbursement. Also the OCFO’s Policy on Submission of Invoices to the Office of
Finance, dated August 1, 2005, stipulates that, for audit purposes, invoices are to be
maintained by the originating office for a period of 75 months.

In addition, we noted four direct pay purchases of $3,000 or less and two direct pay
purchases over $3,000 that were not paid in a timely manner. Both direct pay purchase
transactions over $3,000 incurred late interest penalties.5 The Prompt Payment Act,
Section 1315.4(f) states:
           The period available to an agency to make a timely payment without
           incurring an interest penalty begins on the date of receipt of a proper
           invoice. Section 1315.4(b) of the rule provides that an invoice is deemed
           to be received on the later of 1) the date a proper invoice is received by
           an agency if the agency annotates the invoice with the date of receipt, or
           2) the seventh day after the date in which goods are delivered or
           services completed, unless acceptance occurs earlier or if a longer
           acceptance period is specified in the contract. If the agency fails to
           annotate an invoice with the date of receipt of the invoice, the date
           placed on the invoice by the contractor is used to determine the start

5
     The total additional expense incurred from late interest penalties was $87.44.  

                                                  Page 3 of 6
          date for the payment period. Unless otherwise specified, Section
          1315.4(g) of the Prompt Payment rule states that payment is due on
          either 1) the date specified in the contract, 2) in accordance with discount
          terms when discounts are offered and taken, 3) in accordance with
          Accelerated Payment Methods, or 4) 30 days after the start of a payment
          period, when a proper invoice is received.

We also noted that 4 of 1186 direct pay purchases were processed and approved by the
same person in Pegasys. Specifically, the same person who processed the direct pay
purchase provided authorization for all three Pegasys role-holder positions: Direct Pay
Approver, Accounting Classification, and Funds Authorization. According to the
Government Accountability Office’s Standards for Internal Controls in the Federal
Government, segregation of duties is one of the key control activities that help reduce
the risk of error or fraud.

Conclusion

Generally, we found the internal controls in place for direct pay purchases to be
effective with the exception of observations noted in this report. We believe the
recommendations included in this report will address these observations.

Recommendations

We recommend that the Office of the Chief Financial Officer and the Heads of Services
and Staff Offices:

          1. Ensure that the Office of the Chief Financial Officer’s Policy on Submission of
             Invoices to the Office of Finance is consistently applied and followed Agency-
             wide regarding the record retention requirements.
          2. Ensure that the Prompt Payment Act is followed Agency-wide to avoid the
             incurrence of late payment interest penalties.

We recommend that the Office of the Chief Financial Officer:

          3. Implement controls in Pegasys to prevent a single individual from holding
             three Pegasys role-holder positions to authorize direct pay purchases.




6
    There were 118 direct pay purchases that were $3,000 or less.

                                               Page 4 of 6
MANAGEMENT'S RESPONSE

Management's response dated September 24, 2010 states they concur with the audit
finding and recommendations noted in the audit report.

MANAGEMENT CONTROLS

The objective of the audit was to determine if fiscal year 2009 direct pay purchases
were in compliance with Office of the Chief Financial Officer policy and the Prompt
Payment Act. As part of the audit, we reviewed the controls over the direct payment
process and noted GSA did not consistently adhere to the Office of the Chief Financial
Officer's Policy on Submission of Invoices to the Office of Finance and the Prompt
Payment Act. We have included recommendations in this report to address identified
control issues.

We would like to thank the Office of the Chief Financial Officer for the courtesies
extended to us during our review. If you have any questions regarding this report,
please do not hesitate to call me or Donna Peterson-Jones, Audit Manager, at 202-501-




/~1rtL~
Jeffrey C. Womack
Deputy Assistant Inspector General for
Finance and Administrative Audit Office (JA-F)




                                      Page 50f6
                         AUDIT OF GSA’S FISCAL YEAR 2009
                             DIRECT PAY PURCHASES
                        REPORT NUMBER: A100137/B/F/F10004



                                REPORT DISTRIBUTION*


                                                                     Copies

Chief Financial Officer, Office of the Chief Financial Officer (B)   3

Commissioner, Federal Acquisition Service (Q)                        1

Commissioner, Public Buildings Service (P)                           1

Internal Control and Audit Division (BEI)                            1

Inspector General, Office of the Inspector General (J)               1

Deputy Inspector General, Office of the Inspector General (JD)       1

Assistant Inspector General for Auditing (JA)                        1

Director, Audit Planning, Policy and Operations Staff (JAO)          1

Assistant Inspector General for Investigations (JI)                  1



*Audit reports distributed electronically.




                                         Page 6 of 6
